U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


PROPOSED CONTRACT NO. 8-07-30-LO470
   WITH DYNASIM FOR THE DESIGN,
 INSTALLATION, AND OPERATION OF A
     WATER EDUCATION THEATER
         AT HOOVER DAM,
      BUREAU OF RECLAMATION

             REPORT NO. 99-I-308
                MARCH 1999
                                                                         W-IN-BOR-003-98(A)-R


                 United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                          Washington, D.C. 20240

                                                                       MAR 2 2 1999


                                       AUDIT REPORT
Memorandum

To:        Commissioner, Bureau of Reclamation

From:      Robert J. Williams
           Assistant Inspector

Subject: Audit Report on Proposed Contract No. 8-07-30-LO470 With DynaSim
         for the Design, Installation, and Operation of a Water Education Theater
         at Hoover Dam, Bureau of Reclamation ( NO . 99-I-308)

                                      INTRODUCTION
This report presents the results of our review of the Bureau of Reclamation’s proposed
contract No. 8-07-30-LO470’ with DynaSim, a limited liability corporation, to design, install,
and operate a virtual reality motion simulation attraction as part of a water education theater
for the historic exhibit building at Hoover Dam. The proposal was submitted to the Bureau’s
Lower Colorado Region and came to our attention during our audit (Assignment No.
W-IN-BOR-003-98-R) of Bureau-managed concession contracts that was requested by the
Bureau. Because the negotiation of the contract was nearing completion and, in our opinion,
the contract was not in compliance with the Bureau’s policies, directives, and standards for
concessions management, we are reporting separately on our evaluation of the proposed
contract. Accordingly, the objective ofthe review was to determine whether the planning and
development of the proposed contract was in compliance with applicable Bureau
requirements.

BACKGROUND
The Reclamation Act of 1902 and subsequent statutes authorized the Bureau to construct,
operate. and maintain an infrastructure ofwater storage and development facilities to reclaim
arid and semiarid lands for agricultural uses in the West. In 1928, the Congress passed the
Boulder Canyon Project Act, which authorized the construction of Hoover Dam on the
Colorado River near Las Vegas, Nevada Construction of the Dam was begun in 193 1 and



‘The Bureau has ternled this proposed contract a special-use permit.
completed in 1935. Since 1937, people have toured the Dam, the power plant, and the
historic exhibit building which houses a model of a generating unit and a historic
topographical map ofthe Colorado River Basin. In 1995, a new exhibit building was opened
to the public, and the historic exhibit building was closed. The Bureau initiated studies to
renovate the historic exhibit building but has not had the funds to complete the renovation.
According to Lower Colorado Regional officials, between 1 million to 3 million people visit
Hoover Dam each year.

In January 1997, the Bureau received an unsolicited proposal from DynaSim to install a
virtual reality motion simulation attraction as part of a water education theater at Hoover
Dam. In March 1998, DynaSim and Lower Colorado Regional personnel performed an
assessment on various possible locations for a water education theater and concluded that the
most suitable and cost-effective location for a theater would be the historic exhibit building.
The DynaSim proposal included four major components: (1) relocation of the historic
Colorado River Basin model from the historic exhibit building auditorium to a more accessible
public location, such as the parking garage; (2) installation of a 20-seat virtual reality motion
simulation attraction in the historic exhibit building auditorium; (3) development of other
exhibits relating to Hoover Dam history, such as the restoration of a working generator; and
(4) renovation ofthe building’s structural, electrical, heating, and air conditioning systems to
meet applicable tire and safety codes. In June 1998, DynaSim, without cost estimates, signed
the Bureau-drafted proposed Contract No. 8-07-30-LO470 for the design, installation, and
operation of the Water Education Theater and returned the contract to the Bureau for final
review and signature. As of December 15, 1998, because of changes in contract language and
inadequate financial information from DynaSim to Regional personnel, the Bureau had not
ratified the proposed contract.

According to Bureau officials, Bureau-managed concessions were not covered by Bureauwide
policies and standards prior to 1995. In 1995, the Bureau issued interim guidance for
concessions management to its regional offices. On April 3, 1998, the Bureau published final
policies (Section LND P02) and directives and standards (Section LND 04-01) in its Manual
to assist Bureau officials in the planning and developing concession contracts that meet the
needs of the public and protect natural and cultural resources.

SCOPE OF AUDIT

We conducted our audit between August and November 1998. To accomplish our objective,
we reviewed files and other documentation and interviewed Lower Colorado Region officials
about planning and developing proposed Contract No 8-07-30-LO470. We also reviewed
Bureau records and conducted interviews with Bureau officials at the Program Analysis
Office in Lakewood, Colorado, and at the Hoover Dam Office.

Our audit w-as made, as applicable, in accordance with the “Government Auditing Standards,”
issued by the Comptroller Genera1 ofthe United States. Accordingly, we included such tests
of records and other auditing procedures that were considered necessary under the
circumstances. Because of the limited scope ofthis review, we assessed the internal controls

                                               2
only to the extent necessary to evaluate the actions taken by Bureau personnel in complying
with the Bureau’s concession policies, directives, and standards in planning and developing
proposed Contract No. 8-07-30-LO470.’ We identified internal control weaknesses related
to the planning and development ofthe proposed contract. which are discussed in the Results
of Audit section of this report. Our recommendations, if implemented, should correct the
weaknesses identified.

We also reviewed the Departmental Report on Accountability for fiscal year 1997, which
included information required by the Federal Managers’ Financial Integrity Act, and the
Bureau’s annual assurance statement for fiscal year 1997 and determined that no material
weaknesses directly related to the objective and scope of our audit were reported.

PRIOR AUDIT COVER4GE
During the past 5 years, neither the Office of Inspector General nor the General Accounting
Of&e has issued any reports on the Bureau’s proposed contract.

                                   RESULTS OF AUDIT
We found that the Bureau ofReclamation’s Lower Colorado Region did not plan and develop
the proposed contract for the virtual reality motion simulation attraction at Hoover Dam in
compliance with the Bureau’s requirements for concessions management. Specifically,
Bureau personnel had not (1) demonstrated that a new concession was needed by the public,
(2) determined that the concession operation was economically viable, or (3) developed a
request for proposal to allow other interested parties to participate in bidding for the new
concession. In addition, the proposed contract did not include required standard contract
provisions, such as those establishing the operations and maintenance responsibilities of the
concessioner and those authorizing unilateral fee increases by the Bureau. Sections LND PO2
(policies) and LND 04-O 1 (directives and standards) of the Bureau Manual provide policies,
directives, and standards to ensure that concession contracts meet public needs and protect
natural and cultural resources and the Government’s financial interests. However, because
this guidance was not followed, there was little assurance that the proposed contract was in
the best interest of the Federal Government.

Manual Section LND PO2,3 .C, states, “Commercial facilities and services will be planned and
developed through a resource management planning and public involvement process.”
According to Bureau officials, this policy was established to ensure that new concession
operations meet the needs of the public while protecting the cultural resource. However,
Bureau personnel had not adequately demonstrated that the concession operation was needed
by the public. ,-Uthough the Marketing and New Products Manager at Hoover Dam told us
that a visitor survey on the proposed Water Education Theater had been conducted, we did


‘.&cording to Lower Colorado Regional officials. the Bureau of Reclamation’ s Unsolicited Proposal Handbook
\vas used to mtlally reuew and process DyaSim’ s proposal.

                                                    3
not find documentation to support that the public was adequately involved in the Bureau’s
determination. We believe that the Bureau should ensure that a water education theater meets
the needs ofthe visiting public.

Manual Section LND 04-O 1, 3.C states, “An economic feasibility study, including the
determination of the economic viability of the concession operation, will be completed.”
.4ccording to Bureau officials, Section LND 04-O 1 (directives and standards) was established
to ensure that the concession operation was economically viable. In that regard, an economic
feasibility study would establish the financial potential of the concession contract and set the
proper franchise fee and length of the contract. However, we found that the Bureau had not
completed an economic feasibility study or adequately studied the economic viability of the
proposed concession operation.

Manual Section LND PO2,3. E, states, “Reclamation will ensure competition in the awarding
of concession contracts.” Manual Section LND 04-01,4. B states that a request for proposal
should be issued “to actively solicit and invite offers from interested parties.” Bureau officials
told us that this policy was adopted to help ensure that new concessions operations provide
the highest quality recreational activities to enhance visitor enjoyment. However, we found
that Regional Office personnel had not developed a request for proposal which would foster
expanded competition. Instead, Regional Of&e personnel reviewed and processed
DynaSim’ s proposal under the Bureau’s Unsolicited Proposal Handbook. The Marketing and
New Products Manager at the Hoover Dam told us that a request for proposal was not
prepared because of a lack of staffing and financial resources. However, without competition,
the Bureau did not have fi.111 assurance that the Government’s financial and program interests
were protected

Manual Section LND 04-O 1,4.D (3) states, “To the extent practicable, standard concessions
contract or amendment language will be used to ensure compliance with all applicable laws,
rules, executive orders, regulations, and Reclamation Concessions Management Policv.”
However, we found that the Lower Colorado Region had not incorporated a significant
portion of the Bureau’s standard concession contract language into proposed Contract
No, S-07-30-LO470 as follows:

     - There was no operating plan to identify information such as (1) the physical location,
including detailed maps, of the concession’s location; (2) the number of employees; (3) the
visitor and employee security and fire protection requirements; and (4) the concessioner
requirements for preparing financial and management reports.

    - There was no maintenance plan. Although Section 19 of the contract addressed
maintenance responsibilities in a general manner, it did not provide detailed procedures for
maintaining and repairing the historic exhibit building at Hoover Dam and did not cover such
activities as ( 1) painting interior and exterior surfaces; (3) maintaining and repairing heating,
air conditioning, electrical, and fire protection systems; and (3) inspecting facilities.




                                                4
    - The authority of the Bureau to unilaterally increase the fee and the right of the
concessioner to appeal the fee increase by demonstrating that the increase would cause
financial harm were not specified. Instead, the contract stated that the fee charged for the use
of Hoover Dam’ s historic exhibit building could be adjusted only upon agreement by both the
concessioner and the Bureau. In our opinion, fee increases should be specified before a
contract has been finalized. We believe that the Bureau’s standard contract language more
appropriately protects the interest of the Government and the concessioner.

We concluded that managers at the Lower Colorado Region had not complied with existing
policies, directives, and standards and that Bureau officials had not developed detailed
procedures to assist employees in implementing the Bureau’s current policies, directives, and
standards. However, because we are reporting at this time on only the planning and
development of this proposed contract, we are deferring a recommendation to develop
detailed procedures until we complete our overall review of the Bureau’s concessions
management activities.

Recommendations

We recommend that the Commissioner, Bureau ofReclamation, require that Lower Colorado
Region officials:

    1. Suspend negotiations with DynaSim

    2. Ensure that all concessions policies (LND P02) and concessions directives and
standards (LND 04-01) are complied with in any subsequent actions to acquire a water
education theater at Hoover Dam.

Bureau of Reclamation Response and Office of Inspector General Reply

In the February 8, 1999, response (Appendix I), to the draft report from the Commissioner,
Bureau of Reclamation, the Bureau concurred with the two recommendations, Based on the
response, we consider the recommendations resolved and implemented.

Since the recommendations are considered resolved and implemented, no finther response to
this report is required (see Appendix 2).

The legislation, as amended, creatin,0 the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our audit.
                                                                                               APPENDIX 1
                          United States Department of the Interior
                                           BURE.4U OF RECLUl_4TION
                                                Washington. D.C. %I?40

IN REPLY REFER m:


   D-5010

                                                 MEMORANDUM


   To:                Office of the Inspector General
                          Attention: Assistant Inspectomral for Audits

   From:


   Subject:                                                                     470 With DynaSim For The
                      Design, Installation, And Operation of a Water Education Theater At Hoover Dam,
                      Bureau Of Reclamation,” Assignment No. W-IN-BOR-003-98(A)-R

   The Bureau of Reclamation (Reclamation) offers the following comments in response to the
   recommendations in the subject report:

   We recommend that the Commissioner, Bureau of Reclamation, require that Lower Colorado Regional
   officials:

   Recommendation 1;

   Suspend negotiations with DynaSim.

              Resoonse

              Concur. By February 28, 1999, the Lower Colorado Dams Facilities Office wil1, through official
              correspondence, terminate negotiations with DynaSim as of the date of receipt. The responsible
              official is the Area Manager, Lower Colorado Dams Facilities Office.



   Ensure that all concessions policy (LND P02) and concessions directives and standards (JJJD 04-01) are
   complied within any subsequent actions to acquire a Water Education Theater at Hoover Dam.

              ReSDOnSe:


             Concur. Lower Colorado Dams Facilities officials will follow concessions policy, directives and
             standards in subsequent actions to acquire additional visitor services at Hoover Dam. The
             responsible official is the Area Manager, Lower Colorado Dams Facilities Office.




   cc: Assistant Secretary - Water and Science, Attention: Carla Burzyk

                                                        6
                                                          APPENDIX 2



      STATUS OF AUDIT REPORT RECOMMENDATIONS


Findin~gRecommendation
        Reference              Status          Action Required

        1 and 2          Implemented.   No further action is required.




                                  7
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov


                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Off& of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (671) 647-6060
Offke of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 I-800-424-5081
 TDD l-800-354-0996

FI’SKommercial Numbers:
 (202) 208-5300
 T’DD (202) 208-2420



1849 C Street, N.W.
Mail Stop 5341
